       SIGAR                                                   Special Inspector General for
                                                                Afghanistan Reconstruction




                                                                           SIGAR Inspection 13-5




    IMAM SAHIB BORDER POLICE COMPANY
    HEADQUARTERS IN KUNDUZ PROVINCE: $7.3
    MILLION FACILITY SITS LARGELY UNUSED




                                                                                     JANUARY
                                                                                    2013

SIGAR Inspection 13-5/Imam Sahib Border Police Company Headquarters
SIGAR
                                                    January 2013
                                                    Imam Sahib Border Police Company Headquarters in Kunduz Province:
                                                    $7.3 Million Facility Sits Largely Unused

                                                   SIGAR Inspection 13-5

Special Inspector General for                      WHAT SIGAR FOUND
Afghanistan Reconstruction
                                                   SIGAR’s inspection was limited to two buildings and a portion of a third of
                                                   the total 12 buildings at the facility because most buildings were locked
                                                   and on-site personnel did not have keys. No major construction quality
                                                   issues were identified at the buildings SIGAR inspected.
WHAT SIGAR REVIEWED                                Built with a capacity for 175 persons, only about 12 Afghan personnel
In March 2010, the U.S. Army Corps                 were on site during SIGAR’s inspection, and they were unaware of plans
                                                   to move additional staff to the facility. Construction plans for Afghan
of Engineers - Afghanistan Engineer                forces were aligned to the personnel strength of 352,000, and there were
District - North (USACE-TAN) awarded               no plans to adjust the building program to varying circumstances. Most
a $5.7 million firm fixed-price                    buildings appeared unused and some equipment—specifically, wood-
contract to Omran Construction,                    burning stoves near the site’s dining facility—had been dismantled.
Consulting and Engineering Company                 The facility also lacks back-up electrical power. In addition, sustaining the
to design and build facilities at the              facility will require personnel with appropriate skills to keep the electrical
Imam Sahib Border Police Company                   generator; fueling station; water treatment system; and heating,
Headquarters in Kunduz province.                   ventilation, and air conditioning systems in working order. However, there
Subsequent modifications to the                    is neither an operation and maintenance contract nor a plan to train
contract increased its total value to              Afghan personnel to operate and maintain equipment. This raises
                                                   questions about the Afghan government’s ability to sustain the facility.
$7.3 million. The facility was turned
over to the Afghan Border Police on                WHAT SIGAR RECOMMENDS
September 3, 2012. As part of its                  SIGAR recommends that USACE, in coordination with the NATO Training
inspection program, the Special                    Mission-Afghanistan/Combined Security Transition Command-Afghanistan
Inspector General for Afghanistan                  (NTM-A/CSTC-A), review plans for constructing Afghan police facilities to
Reconstruction (SIGAR) conducted a                 determine whether site construction contracts can be downsized or
site inspection at the facility to                 facilities redesigned to reduce unnecessary costs or if facilities, including
determine (1) whether construction                 this location, are needed. If this facility is needed and plans are in place
was completed in accordance with                   for its use, SIGAR recommends reviewing the feasibility of installing
contract requirements and applicable               backup power or connecting to the local grid, awarding an operation and
construction standards and                         maintenance contract or providing training to Afghan personnel, and
(2) whether facilities were being used             determining why wood-burning stoves at the site were dismantled.
as intended and maintained.                        USACE concurred with the first three recommendations but did not concur
                                                   with the last recommendation to determine why the stoves were
In preparation for its site inspection,
                                                   dismantled. NTM-A/CSTC-A’s comments were responsive to all four
SIGAR reviewed contract documents,                 recommendations. In addition, NTM-A/CSTC-A implemented the
technical specifications, design                   corrective action requested in the last recommendation and agreed to
documents, geotechnical reports, and               incorporate the lesson learned in future construction standards.
quality control and quality assurance
reports. SIGAR conducted its site
inspection on November 19, 2012.
SIGAR conducted its work in Kunduz
province and in Kabul, Afghanistan
from September 2012 to January
2013, in accordance with Quality
Standards for Inspection and
Evaluation published by the Council
of the Inspectors General on Integrity
and Efficiency.
                                                   Wood burning stoves installed on September 6, 2012 (left photo), but dismantled (right) by
                                                   the time of the SIGAR visit on November 19, 2012.

      For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 29, 2013

Lieutenant General Daniel P. Bolger
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers


This report discusses the results of our inspection of the U.S. Army Corps of Engineers (USACE)
Imam Sahib Border Police Headquarters construction project in Kunduz Province, Afghanistan.
This report includes four recommendations to the Commanding General, USACE, in
coordination with the Commanding General, NATO Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan (NTM-A/CSTC-A). Our primary recommendation is to
review plans for constructing Afghan Border Police facilities to determine whether site
construction contracts can be downsized or facilities redesigned to reduce unnecessary costs
or if facilities, including this location, are needed, and provide an explanation of the review
results. If it is determined that the facility discussed in this report is needed and plans are in
place for its use, we recommend reviewing the feasibility of installing backup power or
connecting to the local grid, awarding an operation and maintenance contract or providing
training to Afghan personnel, and determining why wood-burning stoves at the site were
dismantled and whether wood burning stoves are feasible for other ANP facilities. USACE
concurred with the first three recommendations but did not agree with the last
recommendation, stating that it had no control or authority over how facilities are used after
they are turned over to the customer.
This inspection report is one of a series of nine inspections of construction projects contracted
by the U.S. Army Corps of Engineers in the Northern Provinces of Afghanistan. SIGAR
conducted this inspection under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 1

Inspection Access Was Limited to Only 3 of the Site’s 12 Buildings because On-Site Personnel Did Not Have
Keys to All Buildings .................................................................................................................................................... 2

Site Facilities Were Generally Unoccupied, Some Installed Equipment Had Been Dismantled, and Other Use
and Sustainability Issues Were Noted ........................................................................................................................ 4
Conclusion.................................................................................................................................................................... 7

Recommendations ...................................................................................................................................................... 7

AGENCY Comments ..................................................................................................................................................... 8

Appendix I - Scope and Methodology ......................................................................................................................... 9

Appendix II - Imam Sahib Border Police Company Headquarters Site Plan ........................................................... 10

Appendix III - Summary of Imam Sahib Border Police Company Headquarters Contract and Amendments ....... 11

Appendix IV - Comments from the U.S. Army Corps of Engineers ........................................................................... 12

Appendix V - Comments from the NATO Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan ................................................................................................................................................................ 15
Appendix VI - Acknowledgments ............................................................................................................................... 19


TABLES

Table 1 - Imam Sahib Border Police Company Headquarters Facilities: Occupancy/Operational Status and
Intended Purposes ...................................................................................................................................................... 5
Table I - Facilities in Contract .................................................................................................................................... 11


FIGURES

Figure 1 - Northern Portion of Imam Sahib Border Police Company Headquarters ................................................ 2
Figure 2 - Southern Portion of Imam Sahib Border Police Company Headquarters ................................................ 2

Figure 3 - Exterior of the Administration Building ...................................................................................................... 3
Figure 4 - Interior of the Administration Building ....................................................................................................... 3

Figure 5 - Sinks in the Combination Latrine, Shower, Ablution, and Laundry Building ........................................... 3

Figure 6 - Combined Fueling Point for Afghan Border Police Vehicles and Site Generator..................................... 3
Figure 7 - September 6, 2012, Photograph of Two Installed Wood-Burning Stoves ............................................... 6

Figure 8 - November 19, 2012, Photograph of Dismantled Stoves ......................................................................... 6

Figure I - Site Plan ...................................................................................................................................................... 10




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                                                                                    Page i
ABBREVIATIONS & ACRONYMS

        ANP                        Afghan National Police

        CSTC-A                     Combined Security Transition Command-Afghanistan

        NTM-A                      NATO Training Mission-Afghanistan
        SIGAR                      Special Inspector General for Afghanistan Reconstruction

        USACE-TAN                  U.S. Army Corps of Engineers, Afghanistan Engineer District-North




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                    Page ii
An objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security
by training and equipping the Afghan National Security Forces, which include the Afghan National Army and the
Afghan National Police (ANP). 1 To support these efforts, the NATO Training Mission-Afghanistan/ Combined
Security Transition Command-Afghanistan (NTM-A/CSTC-A) provided $7.3 million 2 to the U.S. Army Corps of
Engineers (USACE) to construct a Border Police Company Headquarters at Imam Sahib 3 in northern Kunduz
Province on the border with Tajikistan. 4
For this inspection, we assessed the quality and maintenance of construction and site improvements for
facilities located at the Afghan Border Police Company headquarters. Specifically, we determined whether
(1) construction was completed in accordance with contract requirements and applicable construction
standards and deficiencies were corrected before acceptance and transfer and (2) facilities would be used as
intended and maintained.
We conducted this inspection at Kabul, Afghanistan; the USACE Kunduz Resident Office; and the Afghan
Border Police Company Headquarters construction site at Imam Sahib in northern Kunduz Province from
September 2012 to January 2013, in accordance with the Quality Standards for Inspection and Evaluation,
published by the Council of the Inspectors General on Integrity and Efficiency. The engineering assessment
was conducted by Professional Engineers in accordance with the National Society of Professional Engineers’
Code of Ethics for Engineers. Appendix I contains more detail on our scope and methodology. Appendix II
contains a site map of the headquarters.


BACKGROUND

USACE Afghanistan Engineer District-North (USACE-TAN) 5 awarded a firm fixed-price contract W5J9JE-11-C-
0001) on October 15, 2010, for $5.7 million to Omran Construction, Consulting and Engineering Company. 6
As of November 5, 2012, there were seven modifications to the base contract that increased the award
amount to $7.3 million and the period of performance by 152 days. The contract included site improvements
and the design and construction of a headquarters compound. The scope of work included the management,
design, material, labor, and equipment to design and construct and/or refurbish all utilities, roads, buildings,
force protection measures, site security, de-mining activities, as well as a water system, sanitary sewer, storm
drain system, and electrical distribution system. Construction was completed and the facility turned over to the
Afghan Border Police on September 3, 2012.




1 The ANP includes, among others, the Afghan Uniformed Police, Afghan National Civil Order Police, and the Afghan Border

Police.
2   Funded through the Afghanistan Security Forces Fund.
3 Both the District and City of Imam Sahib are transliterated and spelled in various documents as Imam Saheb, Emam

Sahib, and Emam Saheb. For consistency within this report, unless used in a verbatim quotation, we use the Imam Sahib
spelling.
4 Kunduz Province is located north of the Afghan capital, Kabul, and borders Tajikistan. The province covers an area of

7,827 km.2 Three quarters of the area is made up of flat land, while about 12 percent is mountainous or semi mountainous
terrain.
5 In 2009, the Afghanistan Engineer District was divided into two districts—North and South. The North District is referred

to as USACE-TAN.
6 Omran Incorporated, an Afghan consulting, construction, and engineering group, was established in 2004 under the

name of Omran Company. The Kabul-based firm offers civil, structural, design, construction, supervision, and procurement
services throughout Afghanistan.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                                  Page 1
The NTM-A basing strategy 7 focuses on permanent garrison-type basing, with sites placed to allow the ANP to
control the strategic crossroads, ensure freedom of movement for commercial traffic, respond to the most
critical border crossing areas, and provide security for development of Afghanistan’s mineral resources. To
accommodate and unify the requirements for site construction, standard garrisons have been designed for
different unit echelons, including the ANP. 8
See figures 1 and 2 for aerial views of the site that were taken by USACE-TAN in July 2012. Appendix III
summarizes the scope of the contract.

Figure 1 - Northern Portion of Imam Sahib                        Figure 2 - Southern Portion of Imam
Border Police Company Headquarters                               Sahib Border Police Company
                                                                 Headquarters




Source: USACE-TAN, July 31, 2012.                                Source: USACE-TAN, July 31, 2012.



INSPECTION ACCESS WAS LIMITED TO ONLY 3 OF THE SITE’S 12 BUILDINGS
BECAUSE ON-SITE PERSONNEL DID NOT HAVE KEYS TO ALL BUILDINGS

During our November 19, 2012, site visit, we were able to obtain access to only two buildings, and a portion of
a third, of the 12 buildings at the site. All of the other buildings and equipment were locked and Afghan
personnel at the site informed us that they did not have keys to the locked buildings and equipment. Our
observations of these buildings were therefore limited to their exteriors and what could be seen by looking
through building windows.
We were able to obtain access to the site’s administration building (see figures 3 and 4) and combination
latrine/ablution(bathing)/laundry building (see figures 5), as well as to a small building attached to the site’s
dining facility that was designed to house two wood-burning stoves. This latter facility was connected to the
dining facility by a covered walkway and wood storage area. The site, as a whole, was clean and appeared to
be well-maintained. Structural construction of the facilities we were able to visit generally appeared to meet
contract and design specifications. For example, we found no construction defects in the administration



7 The permanent basing strategy developed by the Combined Joint Engineering Directorate of NTM-A is a compilation of

information from a number of years of facility construction in support of Afghan National Security Forces. It is intended to
help the security forces meet the long-term goals, missions, and tasks defined in the National Military Strategy of
Afghanistan
8   See NTM-A Permanent Basing for the Afghan National Army and Facility Stewardship Program, April 2012.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                                    Page 2
building or the latrine. In addition, the fueling point for Afghan Border Police vehicles and the on-site electrical
generator was observed to be running during our visit (see figure 6). Although we could not access the well
house or water tank, the potable water system was functional as evidenced by the availability of water to the
toilets and showers.



Figure 3 - Exterior of the Administration                   Figure 4 - Interior of the Administration Building
Building




Source: Courtesy USACE-TAN, July 31, 2012.                  Source: Courtesy USACE-TAN, July 31, 2012.




Figure 5 - Sinks in the Combination Latrine,                   Figure 6 - Combined Fueling Point for Afghan
Shower, Ablution, and Laundry Building                         Border Police Vehicles and Site Generator




Source: SIGAR photo, November 19, 2012.                        Source: SIGAR photo, November 19, 2012.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                           Page 3
SITE FACILITIES WERE GENERALLY UNOCCUPIED, SOME INSTALLED
EQUIPMENT HAD BEEN DISMANTLED, AND OTHER USE AND SUSTAINABILITY
ISSUES WERE NOTED

Despite being designed for a capacity of 175 personnel, only about 12 Afghan staff were at the site at the time
of our visit on November 19, 2012. 9 On-site personnel were unaware of plans to move additional staff into the
compound. As a result, most of the buildings on the site appeared to be unused. When we discussed this with
NTM-A/CSTC-A officials, they informed us that the construction plans for the ANSF were aligned to the
personnel strength of 352,000, and there were no plans to adjust the building program to varying
circumstances.
Based on our observations and discussions with on-site personnel, plans to use some of the facilities were
unclear. For example, two barracks buildings that were constructed to provide living quarters were
unoccupied. Instead, the administration building, which was intended to be used solely as office space, was
also being used as living quarters.
In addition, although we were unable to obtain access, our examination of the dining facility through the
building’s windows indicated that it was empty and appeared to have never been used. We were unable to
determine during our site visit whether any preparation of meals occurred on site in the dining facility or where
meals were being eaten.
Table 1 shows the occupancy status and intended purposes of the buildings on the site. This problem of
largely unoccupied buildings is similar to our finding in a July 2012 inspection that most buildings at four
Afghan Border Police facilities in Nangarhar province were unoccupied or were not being used as intended. 10




9 During our site inspection, we were accompanied by six Afghan Police officials in uniform. As we conducted our

inspection, we encountered approximately six more individuals, dressed in civilian clothes. We did not determine whether
these were ANP soldiers in civilian clothes, or civilian personnel on-site.
10See SIGAR Inspection 12-01, Construction Deficiencies at Afghan Border Police Bases Put $19 Million Investment at
Risk, July 30, 2012.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                               Page 4
    Table 1 - Imam Sahib Border Police Company Headquarters Facilities: Occupancy/Operational Status
    and Intended Purposes
    Building                                  Occupied/Operational              Intended Purpose

                                              Partially                         Offices and living quarters
    101-Administration building
                                              Occupied                          (figures 3 and 4)

    102 & 202-Barracks                        Unoccupied                        Living quarters

                                                                                Toilets/showers
    203-Latrine                               Operational
                                                                                (figures 5 and 6)

                                              Unoccupied                        Dining facility
    Dining facility                           Wood-burning stoves
                                              dismantled and removed

    601-Warehouse                             Unoccupied                        Storage

                                                                                Petroleum, oil, & lubricants
    602-Petroleum, oil, & lubricants          Unoccupied
                                                                                storage

    403/402-Ammunition                                                          Ammunition storage
                                              Unoccupied
    supply point

                                                                                Covering for well head &
    800-Well house                            Operational
                                                                                equipment

    Water tank                                Operational                       Potable water storage

    990-Propane                               Unoccupied                        Bottled propane storage

                                                                                Fuel storage and distribution
    Fuel point/generator                      Operational
                                                                                (figure 7)

    Septic tank/leach field                   Operational                       Sewage disposal

    Source: SIGAR analysis of contract W5J9JE-11-C-0001.

Furthermore, some equipment installed during construction had been dismantled at the time of our site visit.
Specifically, two wood-burning stoves had been constructed in a small annex adjacent to a covered walkway
that connected the annex with the site’s dining facility (see figure 7). At the time of our November 2012 visit,
however, the two stoves had been dismantled (see figure 8).
According to the Afghan Border Police commander present during our site visit, the stoves had been
dismantled to make minor repairs. In contrast, three other Afghan personnel present on-site told us that the
stoves had been removed from the annex so that the building could be used instead for storage. We were
unable to resolve the discrepancy between these explanations during our visit. In particular, it is unclear from
our observations whether the stoves had ever been used, raising questions as to how it was known that repairs
were needed.
Furthermore, if repairs were indeed necessary, the stoves would have still been under warranty and so any
minor repairs should have been referred by Afghan officials to USACE-TAN. Specifically, the Federal Acquisition



SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                             Page 5
Regulation clause incorporated into the construction contract states that “the warranty shall continue for a
period of one year from the final acceptance of the work [and] the Contractor shall remedy at the Contractor’s
expense any failure to conform, or any defect…the Contracting Officer shall notify the Contractor…of any
failure, defect, or damage.” 11
USACE-TAN project file documents indicated that meetings regarding warranties and facility transfer were
conducted between USACE-TAN and Afghan National Police representatives. Transfer documentation also
indicates that construction of the dining facility—including the wood-burning stoves—was completed in
accordance with “maps, drawings, and specifications” and that no deficiencies existed. Moreover, USACE-TAN
also obtained warranty documents from its contractor and provided them to the Afghan Border Police in both
English and Dari. Therefore, it is unclear why Afghan officials would have chosen to make repairs themselves,
rather than seek warranty service for the stoves. Importantly, by dismantling the wood-burning stoves, Afghan
officials voided the warranty on the stoves and released USACE-TAN’s contractor from any obligation to repair
or replace them. As a result, additional costs will need to be incurred if replacement of the stoves is necessary
at a later date.

Figure 7 - September 6, 2012, Photograph of                    Figure 8 - November 19, 2012, Photograph
Two Installed Wood-Burning Stoves                              of Dismantled Stoves




Source: NTM-A/CSTC-A Regional Support Command-                 Source: SIGAR, November 19, 2012.
North, September 6, 2012.


Our inspection found other use and sustainability issues. For example, the site has no backup generator or
connection to the municipal power grid. As a result, electrical power will be unavailable during periods that the
on-site generator is undergoing maintenance or repair, when fuel is unavailable, and during periods of
unexpected outages. In addition, there is neither an operation and maintenance contract for on-site facilities
and equipment nor are there plans to provide training for local Afghan personnel to keep these systems in
good working order. The site is fairly new, largely unoccupied, and, to date, has had little need for operation
and maintenance support. Nevertheless, sustaining site support facilities—including the electrical generator;
fueling station; water treatment system, and the heating, ventilating, and air conditioning systems—will require
operation and maintenance skills, especially given the site’s remote location. We recently reported similar
findings in our inspection of the Kunduz ANP headquarters facility. 12



11   Federal Acquisition Regulation 52.246-21.
12See Kunduz Afghan National Police Provincial Headquarters: After Construction Delays and Cost Increases, Concerns
Remain about the Facility’s Usability and Sustainability (SIGAR Inspection 13-4), January 24, 2013.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                            Page 6
CONCLUSION

Our inability to obtain access to a number of key buildings at the Imam Sahib Border Police Company
Headquarters makes it difficult to assess whether the site’s overall construction met contract specifications
and construction standards. Although we were able to inspect two buildings and a portion of a third and found
that they generally met contract specifications, the other nine buildings were locked and no on-site personnel
had keys to open them.
The problem with access to buildings during our inspection is symptomatic of the site’s overall lack of
occupancy. Designed for 175 personnel, only 12 individuals were at the facility during our site visit, and on-
site officials were uncertain whether additional personnel would be located there in the future. These findings
are similar to a July 2012 inspection of Afghan Border Police facilities in Nangarhar province, where we noted
that $19 million was spent to construct four Border Police sites, yet the facilities were unoccupied or not being
used as intended. As a result, we question the need to construct a site of this size and design at this location.
Furthermore, $7.3 million worth of construction sits largely unused, and the wood-burning stoves installed near
the site’s never used dining facility had been dismantled. By dismantling these stoves, Afghan officials voided
the warranties on the equipment, potentially resulting in higher costs incurred to replace or repair the
equipment at a later date. This is a worrisome example of waste in the reconstruction effort.
USACE-TAN and NTM-A/CSTC-A also have not adequately planned for the long-term sustainability of the site.
There is no emergency supply of electricity using a backup generator or connection to the municipal electrical
grid to ensure a continuous supply of electrical power to the site. In addition, the site has no operation and
maintenance contract, and there are no plans to train Afghans to keep technically complex systems such as
the electrical generator; fueling station for police vehicles; water treatment; and the heating, ventilating, and
air conditioning in good working order. Protecting U.S.-investment in Afghan Border Police facilities, therefore,
requires a reassessment of the design and sustainability of these facilities to ensure that they are adequately
sized to meet Afghan needs and are appropriately maintained.


RECOMMENDATIONS

To ensure facilities are adequately planned, designed, sized, operated, and maintained to meet Afghan Border
Police needs, we recommend that the Commanding General, USACE, in coordination with the Commanding
General, NTM-A/CSTC-A, as appropriate, direct USACE-TAN to:
        1. Review plans for constructing Afghan Border Police facilities to determine whether site
           construction contracts can be downsized or facilities redesigned to reduce unnecessary costs or if
           facilities, including this location, are even needed; and provide an explanation of the review
           results.
             If it is determined that this facility is needed and plans are in place for its use, the following
             recommendations should be implemented:
        2. Rather than relying solely on a single generator, determine the feasibility of installing a backup
           generator or connecting the site electrical system to the local power grid to prevent loss of
           electricity across the site when the primary generator is out of service for repair or maintenance or
           from unintended power outages, including lack of fuel.
        3. Award an operation and maintenance contract or otherwise provide training to Afghan personnel
           to ensure that the facility is appropriately maintained after the withdrawal of coalition forces.
        4. Determine why the Afghan Border Police dismantled the wood-burning stoves at the Imam Sahib
           Border Police Company Headquarters and assess the need to provide wood-burning stoves at
           other facilities currently under construction or planned for the future.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                               Page 7
AGENCY COMMENTS

USACE provided comments on this report, which are reproduced in appendix IV. USACE concurred with the first
three recommendations, stating that it is prepared to address these issues pending NTM-A/CSTC-A direction
and funding. Specifically, pending NTM-A/CSTC-A funding and direction, USACE is prepared to reduce the
scope of design and construction contracts, evaluate the feasibility of installing a back-up generator or connect
to the local power grid, and issue a task order against the existing operation and maintenance contract.
USACE did not concur with SIGAR’s fourth recommendation, stating that, because the facilities were completed
and turned over to the customer, it has no control or authority over how a customer uses a facility once
completed and accepted. However, USACE is prepared to assist NTM-A/CSTC-A in assessing the need to
provide wood burning stoves at other facilities currently under construction or planned for the future, pending
NTM-A/CSTC-A direction and funding. SIGAR understands USACE’s position; however, the inclusion of wood-
burning stoves in facility construction is a facet of construction standards commonly known as “Afghan-right”or
“Afghan austere” standards. The dismantling of the wood-burning stoves shortly after taking possession of the
facility indicates that they may not be an effective element of these standards. Consequently, SIGAR continued
to believe that USACE-TAN, in coordination with NTM-A/CSTC-A, should determine why the ANSF dismantled the
wood-burning stoves at the Imam Sahib Border Police Company Headquarters and assess the need to provide
wood-burning stoves at other facilities currently under construction or planned in the future. As noted below,
NTM-A/CSTC-A took steps to determine the reason for the stove dismantling.
NTM-A/CSTC-A’s comments were responsive to our recommendations. Regarding Recommendation 1,
NTM-A/CSTC-A responded that the ANP staffing requirement had changed from 175 personnel for a combined
battalion and company headquarters at the time the facility was planned to only a 59 person company
headquarters by the time the facility was completed. Further, NTM-A/CSTC-A learned in recent discussions
with ANP leadership that due to dispersed daily operations, facilities would rarely be at full capacity.
NTM-A/CSTC-A stated that Border Police operations and their impact on facility usage will be incorporated into
future modifications for remaining ANP construction projects.
Concerning Recommendation 2, NTM-A/CSTC-A noted that a Power Summit was held in October 2012 to
review current power requirements of the Coalition and ANSF as well as the current status and capacity of the
Afghan national grid. The summit found that the Afghan power grid is inadequate for current demand and
major investment is still required to connect major military bases to the national grid. The summit also
highlighted the need to conduct feasibility and cost benefit analysis of connecting ANSF facilities to the
national grid as a primary power source in the future. NTM-A will conduct this analysis to develop a feasible
timeline for transition of ANSF facilities to the Afghan grid as their primary power source.
Regarding Recommendation 3, NTM-A/CSTC-A noted that training of Ministry of Defense and Interior facility
engineers is a part of its general approach to building up Afghan ability to sustain their new facilities. The
facilities and infrastructure that are deemed critical can be placed on an operation and maintenance contract
exclusively for their maintainability to ensure the continued viability into 2014 and later. With respect to an
operation and maintenance contract for the Imam Sahib Border Police Company Headquarters, the Afghan
Ministry of Interior’s Facilities Department assumed responsibility when the facility was turned over to them in
September 2012, which is consistent with the approach of urging Afghans into the lead for operating and
maintaining the facilities constructed and transitioned to them.
NTM-A/CSTC-A concurred with Recommendation 4 and took corrective action. An NTM-A/CSTC-A investigation
disclosed that the Afghan Border Police had dismantled the wood-burning stoves because the pots they were
using were larger that the available cooking area on the stoves provided. The Afghans have built a new larger
stove and are currently using it. NTM-A/CSTC-A will incorporate this lesson learned into future construction
standards.
NTM-A/CSTC-A comments are reproduced in appendix V.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                       Page 8
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of an inspection of the Imam Sahib Border Police Company Headquarters in
northern Kunduz Province on the border with Tajikistan. This inspection report is one of a series of nine
inspections of construction projects contracted by the U.S. Army Corps of Engineers in the Northern Provinces
of Afghanistan.
To determine whether construction was completed in accordance with contract requirements and applicable
construction standards, deficiencies were corrected before acceptance and transfer, and facilities were being
used as intended and maintained, we
    •   reviewed contract documents, design submittals, and geotechnical reports to understand project
        requirements and contract administration;
    •   interviewed cognizant U.S. and Afghan government officials responsible for operation and
        maintenance of the completed facility; and
    •   conducted a physical inspection and photographed the project site to observe the current status and
        the quality of construction.
Our physical inspection during the site visit was hindered by the inability to gain access to most of the site
facilities. Because most buildings were locked, we were only able to enter and inspect two buildings and a
portion of a third, out of the 12 buildings at the site. The on-site Afghan personnel informed us that they did
not have keys to the locked buildings and equipment. Part of our inspection and assessment was therefore
conducted by looking through windows, and conversing with the Afghan representatives.
We conducted work at Kabul, Afghanistan; the Kunduz Provincial Reconstruction Team; the USACE Kunduz
Resident Office of the U.S. Army Corps of Engineers, and the Imam Sahib Border Police Company Headquarters
facility site from September 2012 to January 2013, in accordance with the Quality Standards for Inspection
and Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency. These
standards were established to guide inspection work performed by all the Offices of Inspector General. The
engineering assessment was conducted by Professional Engineers in accordance with the National Society of
Professional Engineers’ Code of Ethics for Engineers. We did not rely on computer-processed data in
conducting this inspection. We considered the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. This inspection was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, as amended, the Inspector General Act
of 1978, and the Inspector General Reform Act of 2008.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                                        Page 9
APPENDIX II - IMAM SAHIB BORDER POLICE COMPANY HEADQUARTERS SITE
PLAN

Figure I - Site Plan




Source: Courtesy of USACE-TAN




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 10
APPENDIX III - SUMMARY OF IMAM SAHIB BORDER POLICE COMPANY
HEADQUARTERS CONTRACT AND AMENDMENTS

On October 15, 2010, the U.S. Army Corps of Engineers awarded a firm fixed-price contract (W5J9JE-11-C-
0001) to Omran Construction, Consulting and Engineering Company for $5,721,667.25 to be completed within
400 days of the notice to proceed. As of November 5, 2012, seven modifications to the base contract had
increased the award amount by $1,616,747.57 and the period of performance by 152 days.
Table I provides a summary of the facilities under the base contract.

Table I - Facilities in Contract
Description                                               Quantity

Barracks building type 2                                      1

Barracks building type 3                                      1

Administration building                                       1

Latrine/shower/ablution/laundry facilities                    1

Warehouse building                                            1

Dining facility                                               1

Petroleum, oil, and lubricants building                       1

Gate house and guard shack                                    1

Guard towers                                                  4

Secure storage building                                       1

Fuel storage & generator canopy                               1

Optional: Construct barracks building type 2 to include
                                                              1
utility tie-in and walkways

Source: SIGAR analysis of contract W5J9JE-11-C-0001.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters                             Page 11
APPENDIX IV - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 12
SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 13
SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 14
APPENDIX V - COMMENTS FROM THE NATO TRAINING MISSION-
AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 15
SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 16
SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 17
SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 18
APPENDIX VI - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Brian M. Flynn, Senior Audit Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
William “Lee” Dillingham, Senior Engineer




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 19
                                 This inspection report was
                               conducted under project code
                                        SIGAR-I-006C.




SIGAR Inspection/13-5 Imam Sahib Border Police Company Headquarters   Page 20
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
